Report No. DODIG-2013-007                  October 26, 2012




   Award and Administration of Multiple Award Contracts
    at Naval Facilities Engineering Command Specialty
               Centers Need Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
BCM                           Business Clearance Memorandum
BMS                           Business Management System
COR                           Contracting Officer’s Representative
EXWC                          Engineering and Expeditionary Warfare Center
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IGCE                          Independent Government Cost Estimate
MAC                           Multiple Award Contract
NAVFAC                        Naval Facilities Engineering Command
NFELC                         Naval Facilities Expeditionary Logistics Center
NFESC                         Naval Facilities Engineering Service Center
NTR                           Navy Technical Representative
QASP                          Quality Assurance Surveillance Plan
RFTOP                         Request for Task Order Proposal
SCAN                          Specialty Center Acquisition, NAVFAC
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                         October 26, 2012

MEMORANDUM FOR NAVAL INSPECTOR GENERAL

SUBJECT: Award and Administration ofMnltiple Award Contracts at Naval Facilities
         Engineering Command Specialty Centers Need Improvement
         (Report No. DODIG-2013-007)

We are providing this repmi for information and use. This is the second in a series of
audits of multiple award contracts for services. Contracting officials at Specialty Center
Acquisition Naval Facilities Engineering Command generally provided contractors fair
oppmiunity to compete for task orders awarded under multiple award contracts.
However, they did not send solicitations or amended solicitations to all contractors under
the multiple award contract on two task orders, valued at $16.4 million; prepare adequate
fair and reasonable price determinations on six task orders awarded having only one
proposal, valued at $45.6 million; or prepare adequate fair and reasonable price
determinations on nine modifications, valued at $3.8 million. In addition, contracting
officer's representatives at the Naval Facilities Engineering Service Center did not
petform adequate surveillance on 18 task orders reviewed or review invoices for
cost-type contracts which included unsuppotied other direct costs, totaling $556,590.

The Depatiment of the Navy comments on a draft of this repmi conformed to the
requirements of DoD Directive 7650.3 and left no unresolved issues.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).



                                            Q~/al~
                                            ljJ;cqu6'llne L. Wlcecmver
                                              Assistant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2013-007 (Project No. D2011-D000CF-0276.000)                      October 26, 2012

               Results in Brief: Award and Administration of
               Multiple Award Contracts at Naval Facilities
               Engineering Command Specialty Centers
               Need Improvement
What We Did                                              CORs did not understand quality assurance
                                                         surveillance plan requirements; the contracting
This is the second in a series of audits of
                                                         officers misinterpreted the internal contract
multiple award contracts (MACs) for services.
                                                         administration policy; and the CORs relied on
We reviewed MAC task orders for services at
                                                         unauthorized NAVFAC personnel to perform
Naval Facilities Engineering Command
                                                         surveillance functions, including reviewing
(NAVFAC) Specialty Centers to determine
                                                         invoices which included unsupported other
whether the task orders were properly
                                                         direct costs, totaling $556,590. As a result,
competed, and whether contracting officer’s
                                                         SCAN did not have assurance that the
representatives (COR) performed adequate
                                                         contracted services were received.
oversight. We reviewed 20 task orders, valued
at $101.2 million, awarded under 4 MACs.
                                                         What We Recommend
What We Found                                            We recommend the Director, SCAN:
                                                           • verify that all contractors under a MAC
Contracting officials at Specialty Center
                                                               contract receive the Request for Task
Acquisition, NAVFAC (SCAN) generally
                                                               Order Proposal, even if the request is
provided contractors a fair opportunity to
                                                               amended to incorporate changes.
compete for task orders awarded under MACs.
However, contracting officials limited                     • verify that the IGCEs and fair and
competition for two task orders by not sending                 reasonable price determinations are
the solicitation or amended solicitation to all                adequately supported.
contractors under the MAC because they
believed that they had the authority to exclude          We recommend the Director, SCAN, coordinate
contractors from receiving the solicitation. In          with the Commander, NFESC, to require:
addition, contracting officials did not adequately          • Contracting officers to appoint a COR
determine price reasonableness on six task                      for each task order.
orders awarded having only one proposal,                    • CORs to document surveillance
valued at $45.6 million, and on nine                            performed and report progress to the
modifications with prices increases, valued at                  contracting officer.
$3.8 million, because they relied on unsupported
independent Government cost estimates (IGCE)             Management Comments and
to make their determinations. As a result,               Our Response
NAVFAC did not have assurance that the
                                                         The Commanding Officer, Naval Facilities
services acquired resulted in a fair and
                                                         Engineering and Expeditionary Warfare Center,
reasonable price for DoD.
                                                         agreed with the recommendations, and the
                                                         comments were responsive. No further
CORs at Naval Facilities Engineering Service
                                                         comments are required. Please see the
Center (NFESC) did not perform adequate
                                                         recommendations table on the back of this page.
surveillance on 18 task orders, valued at
$100.2 million. Contracting officers and the
                                                     i
Report No. DODIG-2013-007 (Project No. D2011-D000CF-0276.000)     October 26, 2012

Recommendations Table

       Management                Recommendations          No Additional Comments
                                Requiring Comment                  Required
Director, Specialty Center                               A, B.1, B.2, B.3 and B.4
Acquisition, NAVFAC
Commander, Naval Facilities                              B.1
Engineering Service Center




                                         ii
Table of Contents

Introduction                                                               1

      Objectives                                                           1
      Background                                                           1
      Review of Internal Controls                                          3

Finding A. Competition Was Generally Proper, but Price Reasonableness
Determinations of Task Orders at SCAN Could Be Improved                    4

      Fair Opportunity Generally Provided                                  4
      Price Reasonableness Not Adequately Documented                       6
      Conclusion                                                           7
      Recommendations, Management Comments, and Our Response               8

Finding B. SCAN and NFESC Personnel Need to Improve Surveillance
of Task Orders                                                            10

      CORs Not Designated for Each Task Order                             10
      QASPs Not Prepared                                                  11
      CORs Did Not Perform Surveillance as Delegated and NAVFAC
        Personnel Performed Surveillance Without Proper Authority         12
      NAVFAC Personnel Performed Task Order Surveillance Without Proper
        Training                                                          15
      CORs Did Not Review Invoices                                        15
      Conclusion                                                          17
      Recommendations, Management Comments, and Our Response              17

Appendices

      A. Scope and Methodology                                            21
             Use of Computer Processed Data                               22
      B. Prior Coverage                                                   23
      C. Task Orders Reviewed                                             25
      D. Competition and Price Reasonableness Issues                      27

Management Comments

      Department of the Navy                                              30
Introduction
Objectives
This is the second in a series of audits of multiple award contracts (MACs) for services.
The objectives were to determine whether task orders under MACs for professional,
administrative, and management support services were properly competed among all
awardees and whether contracting officer’s representatives (COR) performed adequate
oversight, including reviewing invoices. See Appendix A for a discussion of the scope
and methodology and Appendix B for prior coverage related to the objectives.

Background
A MAC is a group of indefinite-delivery, indefinite-quantity (IDIQ) contracts used by
DoD customers to obtain services. Specifically, all IDIQ contractors with contracts in the
group are to be given fair opportunity to compete for award of a task order. Multiple
award contracting enables the Government to procure services more quickly using
streamlined acquisition procedures while taking advantage of competition to obtain
optimum prices. Federal Acquisition Regulation (FAR) Subpart 16.5, “Indefinite-
Delivery Contracts,” establishes a preference for making multiple awards of
indefinite-quantity contracts under a single solicitation for the same or similar services to
two or more sources.

The Defense Federal Acquisition Regulation Supplement (DFARS) 207.170-2,
“Definitions,” defines a MAC as a multiple-award-schedule contract issued by the
General Services Administration and the Department of Veterans Affairs as described in
FAR Subpart 8.4, “Federal Supply Schedules;” a multiple award task order or delivery
order contract issued in accordance with FAR Subpart 16.5, or any other IDIQ contract
that an agency enters into with two or more sources for the same line item under the same
solicitation.

Naval Facilities Engineering Command
The Naval Facilities Engineering Command (NAVFAC) is headquartered at the
Washington Navy Yard in Washington, D.C. NAVFAC manages planning, design,
construction, contingency engineering, real estate, environmental, and public works
support for U.S. Navy shore facilities all over the world. With an annual volume of
business of more than $18 billion, NAVFAC also provides best value facilities
engineering and acquisition services for the Navy and Marine Corps, Unified
Commanders, and other DoD agencies. NAVFAC has 12 component commands,
3 specialty centers 1 (Naval Facilities Expeditionary Logistics Center, Naval Facilities
Engineering Service Center, and Naval Crane Center), and 4 specialty organizations


1
 On October 1, 2012, the NAVFAC Engineering and Expeditionary Warfare Center was established and
Naval Facilities Expeditionary Logistics Center, Naval Facilities Engineering Service Center, and Specialty
Center Acquisition, NAVFAC became part of that organization.


                                                    1
(NAVFAC Contingency Officer, Naval Facilities Institute, NAVFAC Information
Technology Center, and Specialty Center Acquisition, NAVFAC [SCAN]). This audit
addresses task orders that SCAN contracting officers awarded on behalf of two specialty
centers located at Port Hueneme, California. This audit also addresses the Naval
Facilities Institute, also located at Port Hueneme, California, that develops and maintains
NAVFAC acquisition processes and procedures.

Naval Facilities Expeditionary Logistics Center
The Naval Facilities Expeditionary Logistics Center (NFELC) is located on the Naval
Base Ventura County in Port Hueneme, California. NFELC is a NAVFAC Specialty
Center and provides asset management for the Navy Expeditionary Combat Command
and other expeditionary forces and is responsible for life-cycle management of equipment
and materials. Additionally, NFELC supports wartime maintenance and mobilization of
naval construction force equipment and mobile utilities. NFELC reports to the NAVFAC
Headquarters in Washington D.C. The MACs included in this audit were issued under
the NFELC DoD Activity Address Code. 2

Naval Facilities Engineering Service Center
The Naval Facilities Engineering Service Center (NFESC) is co-located with NFELC in
Port Hueneme, California. NFESC is a NAVFAC Specialty Center and delivers products
and services for shore, ocean, and waterfront facilities; energy and utilities;
environmental; and amphibious and expeditionary systems. NFESC was established on
October 1, 1993, to consolidate the missions of six NAVFAC components. NFESC
supports NAVFAC Headquarters, NAVFAC Echelon III and IV commands, the
NAVFAC Expeditionary Programs Office, and other commands involved with
expeditionary engineering, anti-terrorism/force protection, ocean facilities, public works,
capital improvements, asset management, and environmental projects. CORs at NFESC
personnel were responsible for surveillance on the task orders discussed in Finding B.

Specialty Center Acquisition, NAVFAC
SCAN, is co-located with NFELC in Port Hueneme, California. SCAN provides
acquisition support for research and development services and hardware, equipment
prototypes, non-standard and technically complex items, anti-terrorism/force protection,
expeditionary equipment and services, and procurement services for NFELC and NFESC.
SCAN contracting officers issued all 4 MACS and all 20 task orders discussed in
Finding A. See Appendix C for a list of task orders reviewed.

Naval Facilities Institute
The Naval Facilities Institute is co-located with NFELC in Port Hueneme, California.
The Naval Facilities Institute is a NAVFAC specialty organization. The Naval Facilities
Institute is responsible for providing acquisition policy and doctrine support, acquisition
community management support, training management, and conducts annual workforce


2
  A six position code that uniquely identifies a unit, activity, or organization that has the authority to
requisition or receive material.


                                                        2
and command surveys. The Naval Facilities Institute developed the Business
Management System (BMS) that NAVFAC contracting officials are to follow when
awarding task orders.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in surveillance of task orders. Specifically, contracting officials at SCAN did
not develop quality assurance surveillance plans (QASP) for task orders awarded under
MACs because they did not understand QASP requirements. In addition, the CORs at
NFESC did not perform on-site inspections, document surveillance of contractor
performance, document approval of deliverables, or review invoices because
unauthorized NAVFAC personnel performed the surveillance. We will provide a copy of
the report to the senior official responsible for internal controls at NAVFAC.




                                            3
Finding A. Competition Was Generally
Proper, but Price Reasonableness
Determinations of Task Orders at SCAN
Could Be Improved
Contracting officials at SCAN provided contractors fair opportunity to compete for
18 task orders, valued at $84.9 million, of the 20 task orders reviewed. However,
contracting officials did not send the Request for Task Order Proposal (RFTOP) or an
amended RFTOP to all contractors under the MAC on two task orders, valued at
$16.4 million. In addition, contracting officials did not make proper price reasonableness
determinations. Specifically, contracting officials did not:

    •   adequately document and support their fair and reasonable price determinations
        on six task orders awarded, valued at $45.6 million, that had only one contractor
        proposal and

    •   prepare adequate fair and reasonable price determinations on 9 task order
        modifications, valued at $3.8 million.

Limited competition occurred because one contracting official did not send the RFTOP to
all contractors because of a reported performance problem with one contractor and
another contracting official did not send the updated RFTOP to all contractors under the
MAC after making two major amendments to the initial RFTOP. In addition, contracting
officials relied on unsupported independent Government cost estimates (IGCEs) when
making price reasonableness determinations on awards where only one contractor
proposal was received. As a result, contracting officials did not have assurance that
NAVFAC obtained a fair and reasonable price for the six task orders, 3 valued at
$45.6 million, and nine task order modifications, valued at $3.8 million.

Fair Opportunity Generally Provided
Contracting officials provided contractors fair opportunity on 18 task orders, valued at
$84.9 million, of the 20 task orders reviewed. However, contracting officials did not
send the RFTOP or amended RFTOP to all contractors under the MAC for the remaining
two task orders, valued at $16.4 million. See Appendix D for a summary of competition
and price reasonableness issues.

Task Order 14
A contracting official did not provide fair opportunity to compete to all contractors for
task order 14, valued at $206,177, awarded under contract N62583-09-D-0061. In this


3
 The six task orders without adequately documented fair and reasonable price determinations included the
two task orders where all the contractors did not have a fair opportunity to compete.


                                                   4
regard, the contracting official sent the RFTOP to only two of the three contractors under
the MAC. The contracting official improperly followed direction from the NFELC
Integrated Logistics Support COR who requested omitting the third contractor from
receiving the solicitation. Specifically, the COR stated in a February 8, 2011, e-mail:

       please send [RFTOP] out to [contractor A] and [contractor B] for Bids. I
       believe that this is a HOT job due to the funding issue. Do NOT send this job to
       [contractor C] for Bid as this job is Training related. [Contractor C] has still not
       completed their one and only Training Related job, poor past performance in the
       Training area.

FAR 16.505(b)(1)(i), “Orders under multiple award contracts,” states that the contracting
officer must provide each contractor fair opportunity to compete for every task order
more than $3,000 awarded under a MAC. Further, FAR 16.505(b)(1)(ii)(B) states that
the contracting officer shall not use any method that would prevent all vendors from
getting a fair opportunity. The contracting officer did not have the authority to limit
competition by excluding one contractor under a MAC from receiving the solicitation for
the task order. SCAN should ensure that all contractors under a MAC receive the
solicitation, even if one contractor is underperforming. The technical evaluation is the
tool that should be used to eliminate underperforming contractors from consideration.

Task Order 7
Contracting officials did not provide specific requirements in the initial RFTOP for task
order 7, valued at $16.2 million, awarded under contract N62473-07-D-4020, resulting in
limited contractor competition. FAR 15.206(a) states that the contracting officer shall
amend the solicitation when the Government changes its requirements or terms and
conditions either before or after receipt of proposals. FAR 15.206(c) states that an
amendment issued after the established time and date for receipt of proposals shall be
issued to all offerors that have not been eliminated from the competition. FAR 15.206(e)
requires the contracting officer to cancel an original solicitation and issue a new one if an
amendment issued after offers have been received is so substantial that additional sources
likely would have submitted offers had the amendment been known to them.

Contracting officials sent the initial RFTOP for sustainment of equipment at Navy
installations worldwide to four contractors. One contractor submitted a proposal and two
contractors did not respond. The fourth contractor submitted a no-bid response stating
that the lack of specific information (including manufacturing information, part numbers,
serial numbers, technical data, obsolescence criteria, and pricing of spares) resulted in too
much risk. Upon review, contracting officials determined that the only proposal received
was not fair and reasonable and was not eligible for award. Instead of preparing a new
RFTOP, the contracting officer requested that the RFTOP be amended to establish a
separate contract line item for conducting site surveys and developing a complete
inventory list of equipment to be sustained under the task order. There upon, the
contracting officials amended the solicitation to revise the requirements but did not notify
all four contractors that the solicitation had been amended. The contracting officer
explained that he would have lost time reissuing a solicitation after working out amended
changes with the one contractor who submitted a proposal. The contracting officer


                                                    5
should have provided fair opportunity for all contractors on the MAC to either bid on the
amended RFTOP or bid on a new solicitation.

Price Reasonableness Not Adequately Documented
Contracting officials received only one proposal on 6 task orders, valued at $45.6 million,
of the 20 task orders reviewed, and did not adequately document and support that the
prices obtained were reasonable. In addition, contracting officials either did not prepare
  Contracting officials either did not    or maintain adequate documentation to support
     prepare or maintain adequate         that the prices were reasonable for nine
   documentation to support that the      modifications on six task orders with price
    prices were reasonable for nine       increases, valued at $3.8 million.
   modifications on six task orders
   with price increases, valued at       FAR 15.402, “Pricing Policy,” requires
            $3.8 million.                contracting officers to purchase supplies and
                                         services from responsible sources at fair and
reasonable prices. FAR 15.404-1, “Proposal Analysis Techniques,” states that historical
costs, cost realism analysis, and IGCE can be used to evaluate price reasonableness.

Price Reasonableness Not Adequately Documented on Initial
Award
For the six task orders with only one bid, contracting officers used business clearance
memorandums (BCM) that included using IGCEs as support for price reasonableness
determinations but did not document the basis and support for the estimates in the
contract file. For example, the contracting officer for task orders 7 and 8, awarded under
contract N62473-07-D-4020, reported price reasonableness determinations in the BCMs
without basis for them in the IGCEs or in the contract file. The alternate COR confirmed
that a support contractor prepared the IGCEs but explained that the Government provided
input and guidance for the preparation of the estimates and that he reviewed the IGCEs.
The IGCEs on task order 7 and 8 were not signed and dated. In addition, the support
contractor that developed the IGCE for task order 7 had previously been awarded a task
order under another contract to develop the inventory list needed for task order 7 but,
according to the BCM for task order 7, “was ultimately unable to provide deliverables
that fully met requirements, leaving major shortfalls in needed equipment data.” In
another example, the Navy Technical Representative (NTR) for task order 3, awarded
under contract N62583-09-D-0068, stated that he prepared the IGCE based on his
experience with cost estimate figures and labor hours for that type of work, but he did not
reference the historical data in the contract file that formed the basis for his experience.
The contracting officials should verify that Government review of the IGCE is
documented and the basis for the IGCE has supportable data to provide assurance that
contracting officials negotiate awards that result in a fair and reasonable price. In
addition, contracting officials should maintain complete contract file support for fair and
reasonable price determinations.




                                             6
Price Reasonableness Not Adequately Documented on Task
Order Modifications
For eight of the nine task order modifications, contracting officials compared price
proposals to the IGCEs; however, the IGCEs did not document the basis and have
supportable data for the estimates. The contracting officer awarded the remaining task
order modification without having an IGCE prepared. For example, a contracting officer
issued modification 1 to task order 31, awarded under contract N62583-09-D-0064,
increasing the price by $250,753, without obtaining adequate analysis and documentation
supporting that the price increase was fair and reasonable. Modification 1 resulted in a
44 percent price increase of the initial task order award of $574,460. According to the
price negotiation memorandum, the NTR prepared the IGCE based on his knowledge and
experience but the IGCE did not reference historical cost data for support.

In another example, a contracting officer issued three modifications to task order 34,
awarded under contract N62583-09-D-0064, increasing the price by $609,773
(41 percent), without the contracting officer obtaining adequate documentation that the
price increases were fair and reasonable. The price negotiation memorandum for
modification 1, valued at $254,482, contained no explanation of how the IGCE was
developed. The price negotiation memorandums for modifications 2 and 3, totaling
$355,291, stated that the IGCE was prepared by the NTR based on his knowledge and
expertise. Contracting officials did not have supporting documentation available to
support the reasonableness of the cost estimates.

Contracting officials for the nine task order modifications did not have supportable cost
estimates available when making their fair and reasonable price determinations.

Contracting officials should verify that IGCEs include adequate documented support for
cost estimates and maintain complete contract file support for fair and reasonable price
determinations on negotiated task orders and modifications. In addition, contracting
officials should make sure that Naval Facility Engineering Command personnel prepare
the IGCEs or document their review and acceptance of an IGCE prepared by a contractor.
An adequately supported price reasonableness determination is critical, especially when
only one proposal is received to provide assurance that the Government obtains a fair and
reasonable price on the purchase.

Conclusion
Although contracting officials generally competed and received multiple proposals for
task orders under MACs to support fair opportunity, they awarded 2 of the 20 task orders
without giving all potential contractors an opportunity to compete. In addition,
contracting officials did not adequately document that price reasonableness was achieved
on six task orders that had only one contractor proposal. Also, contracting officials either
did not prepare or did not maintain adequate documentation to support that the prices
were reasonable for nine modifications made to task orders with price increases. As a
result, contracting officials did not have assurance that the Government obtained a fair




                                             7
and reasonable price for six task orders and nine task order modifications issued under
the four MACs.

Recommendations, Management Comments and Our
Response
A. We recommend the Director, Specialty Center Acquisition, Naval Facility
Engineering Command, establish procedures that require:

      1.        Verification that the contracting officer sends the Request for Task
Order Proposal to all contractors under the multiple award contracts.

Department of the Navy Comments
The Commanding Officer, responding on behalf of the Naval Facilities Engineering and
Expeditionary Warfare Center (NAVFAC EXWC) Acquisition Director (formerly known
as SCAN Director), agreed, stating that the NAVFAC EXWC Acquisition Director will
establish a procedure to verify that an issuing officer sends the RFTOP to all contractors
under a MAC. In addition, NAVFAC EXWC will establish a process to periodically
review and report compliance with the new procedure.

      2. Notification to all contractors when a solicitation is amended to
incorporate significant requirement changes.

Department of the Navy Comments
The Commanding Officer agreed, stating that the NAVFAC EXWC Acquisition Director
will establish a procedure to verify that an issuing officer sends a significant amendment
to all contractors under a MAC, and establish a process to periodically review and report
compliance with the new procedure.

      3. Verification that the independent Government cost estimates includes
adequate documentation to support cost estimates.

Department of the Navy Comments
The Commanding Officer agreed, stating that the NAVFAC EXWC Acquisition Director
will develop a checklist based on minimum IGCE adequacy criteria and required
documentation established by the Under Secretary of Defense for Acquisition,
Technology, and Logistics. He stated that additional corrective action will include a
workshop to assist contracting officers and specialists on methods to evaluate an IGCE
for adequacy and reasonableness prior to use in any price or cost analysis.

        4. Either preparation of the independent Government cost estimate by Naval
Facility Engineering Command personnel or documentation of review and
acceptance by Naval Facility Engineering Command personnel of an independent
Government cost estimate prepared by a contractor.




                                            8
Department of the Navy Comments
The Commanding Officer agreed, stating that the NAVFAC EXWC Acquisition Director
will work with the EXWC business lines to develop, coordinate and implement
appropriate and effective corrective actions.

       5. Maintenance of complete contract file supporting documentation for fair
and reasonable price determinations.

Department of the Navy Comments
The Commanding Officer agreed, stating that the NAVFAC EXWC Acquisition Director
will establish procedures that identify the supporting data required and establish a process
to report compliance with the new procedure. In addition, he stated that assistance will
be made available to contracting officers and specialist on the types of support data
required for fair and reasonable price determinations.

Our Response
Comments from the Commanding Officer were responsive to all recommendations, and
no further comments are required.




                                             9
Finding B. SCAN and NFESC Personnel
Need to Improve Surveillance of Task Orders
Contracting officials at SCAN and CORs at NFESC did not perform adequate
surveillance on 18 task orders 4 reviewed, valued at $100.2 million. Specifically,
contracting officials designated one COR to perform surveillance on all task orders issued
under each of the three MACs reviewed. In addition, the contracting officials and the
CORs did not prepare a QASP for each task order. Finally, the CORs did not perform the
duties listed in COR designation letters. Specifically, the CORs did not:

    •   perform onsite inspections,

    •   document surveillance of contractor performance,

    •   document approval of deliverables, and

    •   review invoices for cost-type contracts where we identified the payment of
        unsupported other direct costs totaling $556,590.

This occurred because contracting officers misinterpreted the internal contract
administration policy regarding the appointment of CORs, contracting officers and the
CORs not understanding QASP requirements, and the CORs relying on unauthorized
NAVFAC personnel to perform surveillance functions, including reviewing invoices. In
addition, one COR, one alternate COR, and six unauthorized NAVFAC personnel either
did not take COR training or did not receive up-to-date COR training. As a result,
contracting officials and the CORs did not have assurance that services paid for were
received and the Government’s interests were adequately protected.

CORs Not Designated for Each Task Order
Contracting officials assigned one COR to be responsible for the surveillance of all task
orders awarded under each MAC. The following table on page 11 shows how many task
orders were awarded under each MAC at the time of our visit to SCAN in October 2011.




4
 As of October 2011, contractors had not started work on the remaining two NFELC task orders reviewed
under MAC 4.



                                                 10
              Table 1. Total Task Orders Awarded Under Each MAC
                              as of October 12, 2011

           Number of                                                         Number of
             IDIQ                                                           Task Orders
                               MAC Description             Number of Task
 MAC       Contracts                                                         Reviewed
                                                           Orders Awarded
            Under
             MAC

                          Antiterrorism Force Protection
                           Equipment Installation and
 MAC 1         4                   Maintenance                   43              6
                          Ocean Facilities Engineering
 MAC 2         5               Support Services                  91              8
                          Barrier, Mooring, and Marine
 MAC 3         5           Facility Support Services             34              4


The contracting officers assigned one COR to each MAC instead of to each task order
because they misinterpreted BMS Policy Subsection S-18.3.6.6, “Appoint Contracting
Officer’s Representative/Alternate Contracting Officer’s Representative,” April 2011,
which states that a contracting officer shall “appoint CORs/ACORs in writing prior to
award of a contract action to assist in the technical monitoring or administration of a
contract. . . . Only one COR/ACOR may be appointed per contract.” This contradiction
in the NAVFAC internal policy caused contracting officials to incorrectly believe that
only one COR could be designated for each MAC. In the case of MAC 2, this resulted in
one COR being responsible for surveillance on 91 task orders with work being performed
worldwide.

FAR 1.602-2, “Responsibilities” clearly states that contracting officers shall appoint a
properly trained COR in writing for all contracts and orders “other than those that are
firm-fixed price, and for firm-fixed price contracts and orders as appropriate.” CORs
serve a critical and vital role in assuring contractors meet the performance requirements
of the contract in terms of cost, quality, quantity, schedule, and price. Accordingly,
contracting officials should have appointed a COR to each task order. By not appointing
a COR to each task order, contracting officials did not have assurance that CORs were
providing adequate surveillance over the workload assigned to them to verify NAVFAC
was obtaining the services being paid for and that the quality of services met the task
order requirements. To correct this condition, SCAN should request a modification to the
NAVFAC policy on acquisitions to be consistent with the FAR. Also, SCAN contracting
officers should appoint a COR for each task order.

QASPs Not Prepared
Contracting officers and CORs did not prepare QASPs for any of the 18 task orders
reviewed, valued at $100.2 million. FAR Subpart 46.4, “Government Contract Quality
Assurance,” states that QASPs should be prepared in coordination with the performance
work statement. FAR Subpart 37.6, “Performance-Based Acquisitions,” adds that the
performance work statement should include measureable performance standards and the


                                              11
methodology for assessing contractor performance against performance standards. In
addition, FAR Subpart 46.4 states that the QASP should address the frequency of
surveillance and the location. The QASP should also identify all work requiring
surveillance and the type of surveillance. The surveillance can be performed at any time
or location deemed necessary to verify that services conform to contract requirements.

However, CORs stated that they were not aware that a QASP was required, what a QASP
was, or how it should be used. For example, the COR for MAC 1 stated that he did not
prepare a QASP but stated that the contractor prepared a quality assurance plan. The
                                       contractor developed a quality assurance plan for its
  CORs stated that they were not       use to ensure that services met the Government’s
      aware that a QASP was            requirement in the performance work statement.
  required, what a QASP was, or        However, the quality assurance plan is not the same
       how it should be used.          as a QASP. A QASP is developed by DoD to
                                       monitor the quality of a contractor’s performance,
provide the COR with a proactive way to avoid unacceptable or deficient performance,
and provide verifiable input for future required past performance assessments. Confusing
the contractor-prepared quality assurance plan with the DoD-prepared QASP indicates a
lack of understanding by the COR on the use of a basic contract surveillance tool. In this
regard, the Director of Contracting stated that she was unaware that a QASP was not
being used by the CORs and that she did not know why the Contract Review Board had
not addressed this area.

Contracting officers, in conjunction with CORs, should develop QASPs before task order
award to provide requirements for COR monitoring and reporting of contractor progress
and provide instruction for acceptance of contract deliverables. In addition, the
contracting officer and COR should develop a QASP that provides measurable metrics to
evaluate contractor performance and that will provide set time frames for frequency of
reporting relevant to the subject contract. Also, the QASP should identify who has
responsibility for surveillance, and be signed and dated before the start of the task order
performance period.

CORs Did Not Perform Surveillance as Delegated and
NAVFAC Personnel Performed Surveillance Without
Proper Authority
CORs did not perform surveillance as delegated on the 18 task orders reviewed, valued at
$100.2 million. The three CORs assigned to each of the three MACs did not perform the
duties listed in the COR designation letter. Specifically, they did not perform onsite
   CORs did not perform surveillance        inspections, document surveillance of
    as delegated on the 18 task orders      contractor performance, document approval of
   reviewed, valued at $100.2 million.      deliverables, or review cost-type invoices.
                                            Generally, the COR designation letters
required the COR to periodically monitor the contractor’s performance to ensure that
charges were correct, review and provide comments on contractor’s progress reports, and
certify in writing their inspections and acceptance of the services performed.



                                            12
The CORs assigned to each task order should maintain written support for inspection and
acceptance of deliverables. Also, the CORs should document their surveillance activities
and report their progress to the contracting officer.

The CORs relied on unauthorized NAVFAC personnel, specifically Navy Technical
Representatives (NTR) 5 and project execution coordinators, to perform surveillance
functions on 15 of the 18 task orders reviewed. Contracting officers did not prepare NTR
appointment letters outlining the roles and responsibilities of the NTRs for 12 task orders
reviewed. In addition, project execution coordinators performed surveillance on three
task orders without proper authority. According to the Naval Facilities Acquisition
Supplement 1.602-2(b), “Navy Technical Representative (NTR),” contracting officials
are required to formally appoint individuals as NTRs by appointment letter before task
order award. BMS Policy S-18.3.6 states that a contracting officer shall formally appoint
NTRs in writing and NTRs will acknowledge the appointment by signing and dating.
NTR appointment letters define the scope and limitations of the NTR. NTRs are
responsible to the contracting officer, through the COR, for the responsibilities delegated
to them in the NTR appointment letter. The CORs acted as administrators while the
NTRs and project execution coordinators performed surveillance functions. The CORs
believed that they could rely on the NTRs to perform surveillance functions because the
COR designation letters contained guidance allowing the appointment of NTRs to assist
in executing the COR functions. CORs improperly relied on NTRs to monitor task
orders without properly signed and dated appointment letters because the CORs had too
many task orders to monitor, did not have the technical expertise to oversee the
contractors, and, in some cases, were not physically located at the facilities where the
work was being performed. Table 2 on page 14 identifies the location of the work under
each task order.




5
 Naval military or civilian employees who provide technical support to the COR when the contract is for
architect engineering or environmental services.


                                                   13
           Table 2. Location of Work Performed Under Each Task Order


                  IDIQ Contract      Task Order       Work Performed
                     Number           Number             Location

               MAC 1
               N62473-07-D-4022          5           Multiple U.S. Sites
               N62473-07-D-4020          8               Worldwide
               N62473-07-D-4020          7               Worldwide
               N62473-07-D-4022          6             Mechanicsburg,
                                                        Pennsylvania
               N62473-07-D-4022          9               Worldwide
               N62473-07-D-4022          13           Kingsville, Texas
               MAC 2
               N62583-09-D-0064          25         Linwood, Washington
               N62583-09-D-0065          6              Georgia and
                                                       North Carolina
               N62583-09-D-0067          8            Norfolk, Virginia
               N62583-09-D-0068          3           Japan and Singapore
               N62583-09-D-0064          31                 Japan
               N62583-09-D-0064          34         Florida and Bahamas
               N62583-09-D-0067          9            Norfolk, Virginia
               N62583-09-D-0067          10         San Diego, California
               MAC 3
               N62583-10-D-0344          2         North Island, California
               N62583-10-D-0341          6                 Greece
               N62583-10-D-0343          9         Bremerton, Washington
               N62583-10-D-0344          4          San Diego, California


For example, the COR for MAC 2 stated that he relied on NAVFAC NTRs to monitor
performance of eight task orders. The COR stated that no NTR appointment letters were
prepared delegating the authority to monitor contractor performance. Also, the NTR for
task order 3, awarded under MAC 2, stated that he did not have an official appointment
letter in writing. He said the appointment was implied and not a formal process.

The COR for MAC 1 explained that NAVFAC project execution coordinators were
responsible for surveillance on some of her task orders. According to Naval Facilities
Acquisition Supplement 1.602-2, “(DFARS) Authorized representatives of the
contracting officer,” the only individuals with surveillance authority are properly
appointed CORs, NTRs, performance assessment representatives, contracting officer’s
authorized representatives, ordering officers, or a departmental accountable official.
Therefore, the project execution coordinators cannot be authorized to perform
surveillance functions on behalf of the COR. Also, the project execution coordinators did
not perform adequate surveillance, which would be expected of a designated Government


                                              14
official. For example, the project execution coordinator for task orders 5 and 13 under
MAC 1, stated that he had no appointment letter, had not taken COR training since 2000,
and did not function as a COR on any of the task orders. In addition, he stated that he
reviewed contract deliverables but did not have approval authority. Another project
execution coordinator, responsible for task order 6 under MAC 1, stated that she was
assigned to the task order by the project manager. In addition, she stated that she did not
communicate with the COR or alternate COR and had not been onsite to monitor the
contractor’s performance. Contracting officers should designate a NTR in writing with
responsibilities and duties for oversight. In addition, contracting officers should
distinguish between the COR and NTR duties.

NAVFAC Personnel Performed Task Order Surveillance
Without Proper Training
NAVFAC personnel responsible for surveillance on 17 of the 18 task orders did not have
required COR training. Specifically, one COR, one Alternate COR, and six NTRs did
not take the COR training or did not have up-to-date training. According to the Under
Secretary of Defense for Acquisition, Technology, and Logistics memorandum, “DoD
Standard for Certification of Contracting Officer’s Representative (COR) for Service
Acquisitions,” March 29, 2010, CORs are required to complete standard training courses
for both fixed-price and other than fixed-price contract types, in addition to minimum
COR refresher training. The memorandum directs CORs to participate in refresher
training that consists of 8 hours every 3 years for fixed-price contracts and at least
16 hours every 3 years for other than fixed-price contracts. In addition, BMS
Policy 18.3.6.7, “Appoint Navy Technical Representatives,” states that the contracting
officer must ensure the NTR complete the basic COR training before appointment.
While performing COR surveillance duties, the NTRs should be held to the same training
standard as the COR. Adequately trained NAVFAC personnel may have been more
aware of their surveillance duties and may have adequately monitored contractor’s
performance to verify that NAVFAC received the agreed upon services. NAVFAC
should ensure that CORs, Alternate CORs, and NTRs obtain required training on
surveillance responsibilities.

CORs Did Not Review Invoices
Two CORs appointed to MAC 2 and MAC 3 who were responsible for 10 cost-type task
orders, valued at $27.6 million, did not review invoices. According to the COR
appointment letters, CORs are responsible for supporting the certification of payment
vouchers and documents for cost vouchers and to periodically monitor contractor
performance to ensure labor hours and travel charges are accurate. However, the COR
for MAC 2, responsible for eight cost-type task orders reviewed, stated that he did not
review the invoices but instead relied on the NTRs to perform invoice reviews. The COR
appointed to MAC 3, responsible for two cost-type task orders reviewed, stated she only
reviews invoices for firm-fixed price contracts and did not review invoices for cost-type
contracts. According to the Director, Defense Procurement, Acquisition Policy and
Strategic Sourcing memorandum, “Approving Payments under Cost Reimbursement,
Time-and-Materials, and Labor-Hour Contracts,” April 14, 2008, the Defense Contract


                                            15
Audit Agency is the only agency with authority to approve invoices for cost-type
contracts. However, that memorandum allows CORs to review contractor billings as part
of their surveillance efforts to verify validity and accuracy of charges. Without an initial
COR review, NAVFAC cannot be assured that services paid for were received and the
Government’s interests were adequately protected.

Contractors did not include adequate supporting documentation in the Wide Area
Workflow for other direct costs of $556,590 6 claimed on 28 invoices, totaling
$8.2 million. Those invoices did not include receipts to support charges listed under
invoice category titles Travel, Meals, Supplies, and Miscellaneous items. A SCAN
contract specialist stated that the contractors did not include supporting receipts with
invoice submission in the Wide Area Workflow. The contracting officer stated that,
when she contacted contractors about not putting receipts in the Wide Area Workflow,
the contractors stated that it was an oversight. For example, an invoice for task order 25,
awarded under MAC 2, listed travel charges of $525, $939, and $704 and credit card
charges from Best Buy for $468, Tobacco for $6, and Amazon for $89, without providing
receipts. Receipts are needed to verify the validity and accuracy of charges and whether
the charges were actually incurred. Without supporting receipts for those charges,
NAVFAC could be paying for costs that were not incurred or were not allowable.
Table 3 identifies the task orders, number of invoices reviewed, invoice amounts
reviewed, and unsupported other direct costs.

                       Table 3. Unsupported Other Direct Costs Issued
                           Under Cost Plus Fixed-fee Task Orders


                                Number of           Total Amount of            Total Unsupported
    Task Order Number            Invoices          Invoices Reviewed           Other Direct Costs
                                Reviewed
N62583-09-D-0064-25                 3                $ 209,865.60                  $ 17,302.09
N62583-09-D-0065-06                  3                  414,035.49                   157,161.21
N62583-09-D-0067-08                  3                  897,309.10                     3,799.69
N62583-09-D-0068-03                  3                  214,518.00                    54,707.43
N62583-09-D-0064-31                  3                    78,589.73                   13,623.38
N62583-09-D-0064-34                  3                1,159,772.05                    17,784.07
N62583-09-D-0067-09                  2                  508,025.86                     4,634.11
N62583-09-D-0067-10                  2                3,687,729.22                    21,634.27
N62583-10-D-0341-06                  3                  432,333.66                   265,199.00
N62583-10-D-0343-09                  3                  605,318.93                       745.05
Total                               28               $8,207,497.64                 $556,590.30




6
  Other direct cost calculation included charges listed under Other Direct Costs, Travel, Meals, Supplies,
and Miscellaneous, but did not include charges under the categories Subcontracts and Materials though
listed under Other Direct Costs.


                                                     16
CORs, or their authorized representatives, should request, review, and maintain receipts
to verify the validity of charges billed for other direct costs. The lack of supporting
documentation for invoices increased the risk for improper payment. Contracting
officials should obtain supporting documentation or recover the unsupported other direct
costs of $556,590 that have been paid to the contractors and should verify all other direct
cost charges on the 10 cost-type task orders reviewed.

Conclusion
CORs did not perform adequate surveillance on the 18 task orders reviewed.
Specifically, contracting officials and CORs did not prepare QASPs for the task orders.
In addition, contracting officials did not designate a COR for each task order and did not
officially appoint NTRs who assisted with surveillance. Also, CORs did not conduct
onsite surveillance, did not document surveillance, did not review invoices, and did not
document approval of deliverables. As a result, NAVFAC cannot be assured that the
contractors were in full compliance with contract and task order requirements and that
NAVFAC fully received the services being paid for.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Director, Specialty Center Acquisition, Naval Facility
Engineering Command, in coordination with the Commander, Naval Facilities
Engineering Service Center, require:

       a. Contracting officers to appoint a contracting officer’s representative for
each task order and distinguish between their duties and the Navy technical
representative duties.

Department of the Navy Comments
The Commanding Officer, responding on behalf of both the NAVFAC EXWC
Acquisition Director (formerly known as SCAN Director) and the EXWC Business Lines
(formerly known as NFELC and NFESC), agreed, stating that a corrective action request
will be developed to initiate an update to the NAVFAC Business Management System
(BMS) S-18.3.6.6 (Appoint Contracting Officers Representative/Alternative Contracting
Officer’s Representative) guidance. In addition, he stated that NAVFAC EXWC and its
business lines will make appropriate adjustments to COR and NTR assignments.

       b. Contracting officers and contracting officer’s representatives to sign and
date quality assurance surveillance plans before the start of the task order
performance period.

Department of the Navy Comments
The Commanding Officer agreed, stating that NAVFAC EXWC will ensure task order
pre-award checklists are updated to include a check by a contract specialist or contracting
officer to ensure quality assurance surveillance plans are signed before the start of task
order performance period.


                                            17
       c. Contracting officers and contracting officer’s representatives to develop
quality assurance surveillance plans that provide measurable metrics to evaluate
contractor performance and provide set timeframes for frequency of reporting
relevant to the subject contract. The quality assurance surveillance plan should
identify who has responsibility for surveillance and the level of reporting by the
contracting officer’s representative to the contracting officer.

Department of the Navy Comments
The Commanding Officer agreed, stating that NAVFAC EXWC Acquisition will work
with CORs to develop appropriate metrics for inclusion in QASPs and set timeframes for
frequency of reporting. In addition, he stated that NAVFAC EXWC Acquisition will
work with CORs to develop quality assurance templates for each MAC. The QASP will
include the responsible official for surveillance, outline the COR’s reporting
requirements to the contracting officer, and require documented inspection and
acceptance.

       d. Contracting officer’s representatives to document support for inspection
and acceptance of deliverables. The approval should clearly identify the type of
review performed and basis for the approval.

Department of the Navy Comments
The Commanding Officer agreed, stating that NAVFAC EXWC Acquisition and its
business lines will develop, coordinate and implement corrective actions.

      e. Contracting officer’s representatives need to document surveillance
performed and report progress to the contracting officer.

Department of the Navy Comments
The Commanding Officer agreed, stating that NAVFAC EXWC Acquisition and its
business lines instruct the CORs to report surveillance as agreed upon in
Recommendation B.1.c.

       f. Contracting officers to appoint a Navy technical representative, if needed,
in writing with responsibilities and duties for oversight.

Department of the Navy Comments
The Commanding Officer agreed, stating that NTRs will be appointed in writing with
specific duties and responsibilities in accordance with BMS S-18.3.6.6.

       g. Contracting officer’s representatives, alternate contracting officer’s
representatives, and Navy technical representatives obtain required training on
surveillance responsibilities.




                                          18
Department of the Navy Comments
The Commanding Officer agreed, stating that NAVFAC EXWC Acquisition and its
business lines will ensure that the COR, alternate COR, and the NTR complete required
training.

B.2. We recommend the Director, Specialty Center Acquisition, Naval Facility
Engineering Command, require a review of the performance of the contracting
officers and the contracting officer’s representatives involved with these task orders.
As appropriate, determine whether administrative action is warranted.

Department of the Navy Comments
The Commanding Officer, responding on behalf of the NAVFAC EXWC Acquisition
Director (formerly known as SCAN Director), agreed, stating that NAVFAC EXWC will
determine whether any action is warranted.

B.3. We recommend the Director, Specialty Center Acquisition, Naval Facility
Engineering Command, require the contracting officers to initiate action to recover
unsupported other direct costs of $556,590 unless detailed cost support
documentation is provided for:

       a. $17,302 on task order 25 under contract N62583-09-D-0064

       b. $157,161 on task order 6 under contract N62583-09-D-0065

       c. $3,799 on task order 8 under contract N62583-09-D-0067

       d. $54,707 on task order 3 under contract N62583-09-D-0068

       e. $13,623 on task order 31 under contract N62583-09-D-0064

       f. $17,784 on task order 34 under contract N62583-09-D-0064

       g. $4,634 on task order 9 under contract N62583-09-D-0067

       h. $21,634 on task order 10 under contract N62583-09-D-0067

       i. $265,199 on task order 6 under contract N62583-10-D-0341

       j. $745 on task order 9 under contract N62583-10-D-0343

Department of the Navy Comments
The Commanding Officer, responding on behalf of the NAVFAC EXWC Acquisition
Director (formerly known as SCAN Director), agreed, stating that NAVFAC EXWC
contracting officials will be assigned to review the unsupported other direct costs and
either obtain documentation to support the billed amounts or recover any unsupported
billed amounts.


                                            19
B.4. We recommend the Director, Specialty Center Acquisition, Naval Facility
Engineering Command, submit a corrective action request to initiate an update to
the Business Management System Policy S-18.3.6.6, “Appoint Contracting Officer’s
Representative/Alternate Contracting Officer’s Representative,” April 2011, to
specifically state that a contracting officer’s representative should be designated for
every task order.

Department of the Navy Comments
The Commanding Officer, responding on behalf of the NAVFAC EXWC Acquisition
Director (formerly known as SCAN Director), agreed, stating that NAVFAC EXWC
Acquisition will submit a corrective action request to initiate an update to the BMS S-
18.3.6.6.

Our Response
Comments from the Commanding Officer were responsive to all recommendations, and
no further comments are required.




                                            20
Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through August 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We selected a nonstatistical sample of task orders issued in FYs 2009, 2010, and 2011
with high-dollar amounts issued under the NFELC DoD Activity Address Code. We
collected, reviewed, and analyzed documents on those 20 task orders, valued at
$101.2 million, awarded under four MACs in FYs 2009, 2010, and 2011 by SCAN
contracting officers at Naval Base Ventura County, Port Hueneme, California. See
Appendix C for a list of MACs and task orders reviewed. We reviewed pre-award
documentation on 20 task orders, including BCMs, request for proposals, and proposals.
To determine whether SCAN provided contractors fair opportunity to compete, we
reviewed the BCMs and price negotiation memorandums to determine how many
proposals SCAN received and met with the competition advocate. As part of the 20 task
orders, we examined 6 one bid task order awards for price reasonableness by examining
the BCMs, proposal cost evaluations, and IGCEs. We also examined 9 modifications to
6 task orders for price reasonableness. We selected the 9 modifications because the
modifications contained price increases of 5 percent or greater of the task order award
amount. To determine whether surveillance was adequate, we examined the IDIQs, COR
designation letters, COR training certificates, cost reports, weekly project status reports,
and contractor progress reports. Additionally, we selected a nonstatistical sample of
28 cost-type invoices and examined them for completeness. We reviewed documentation
from January 1991 through October 2012.

We interviewed contracting personnel, CORs, NTRs, and project execution coordinators
at NFELC, NFESC, and SCAN at Naval Base Ventura County, Port Hueneme,
California, and Washington Navy Yard, Washington, D.C.

We reviewed the FAR, DFARS, Naval Facilities Acquisition Supplement, and business
processes from the BMS. Specifically, we reviewed FAR 16.505(b)(1)(i), “Orders under
multiple award contracts,” to determine whether task orders were adequately competed.
In addition, we reviewed FAR 15.402, “Pricing Policy,” and FAR 15.404-1, “Proposal
Analysis Techniques,” to determine whether price reasonableness was adequately
determined for task orders awards that received only one bid and for modifications with
price increases over 5 percent of the task order award amount.

We reviewed FAR 1.602-2, “Responsibilities,” and NFAS 1.602-2, “(DFARS)
Authorized representatives of the contracting officer,” to determine whether a COR was
appointed to each task order to perform surveillance on contractor’s performance.
In addition, we reviewed BMS Policy S-18.3.6 to determine whether the NTRs
responsible for surveillance were formally appointed by the contracting officer. We also


                                            21
reviewed FAR Subpart 46.4, “Government Contract Quality Assurance,” to determine
whether adequate quality assurance surveillance plans were prepared for each task order.

Use of Computer-Processed Data
We used computer-processed data from two databases to identify the universe of
contracts and task orders to review—the Federal Procurement Data System-Next
Generation and the Electronic Document Access System. We ran queries using both
systems to identify contracting organizations to visit and selected a nonstatistical sample
of task orders for review.

We used the data only to identify which task orders to review. Once we identified the
task orders that matched our criteria, we selected the nonstatistical sample and compared
the contract file documentation to the electronic database information. Because we used
only the documentation contained in the contract and task order files to support our
findings, conclusions, and recommendations; the information in the two databases were
sufficiently reliable to accomplish our audit objective.




                                            22
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD Inspector
General (DoD IG), the Air Force Audit Agency, and the Special Inspector General for
Iraq Reconstruction issued 13 reports discussing competition and surveillance.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov/.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
http://afkm.wpafb.af.mil/ASPs/CoP/OpenCop.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

Special Inspector General for Iraq Reconstruction unrestricted reports can be accessed
over the Internet at http://www.sigir.mil/Default.aspx.

GAO
GAO Report No. GAO-09-579, “Contract Management: Minimal Compliance with New
Safeguards for Time-and-Materials Contracts for Commercial Services and Safeguards
Have Not Been Applied to GSA Schedules Program,” June 24, 2009

GAO Testimony No. GA0-09-643T, “Defense Acquisitions: Actions Needed to Ensure
Value for Service Contracts,” April 23, 2009

DoD IG
DoD IG Report No. DODIG-2012-033, “Award and Administration of Multiple Award
Contracts for Services at U.S. Army Medical Research Acquisition Activity Need
Improvement,” December 21, 2011

DoD IG Report No. D-2010-087, “Weakness in Oversight of Naval Sea Systems
Command Ship Maintenance Contract in Southwest Asia,” September 27, 2010

DoD IG Report No. D-2010-081, “Army Use of Time-and-Materials Contracts in
Southwest Asia,” August 27, 2010

DoD IG Report No. D-2010-078, “Air Force Use of Time-and-Materials Contracts in
Southwest Asia,” August 16, 2010

DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

DoD IG Report No. D-2009-109, “Contracts Supporting the DoD Counter
Narcoterrorism Technology Program Office,” September 25, 2009

DoD IG Report No. D-2009-083, “Logistics Support Contracting for the United States
Special Operations Command,” May 28, 2009


                                           23
DoD IG Report No. D-2009-082, “SeaPort Enhanced Program,” May 6, 2009

DoD IG Report No. D-2009-036, “Acquisition of the Air Force Second Generation
Wireless Local Area Network,” January 16, 2009

Air Force Audit Agency
Air Force Audit Agency Report No. F2008-0004-FC1000, “Competition in Multiple
Award Service Contracts,” April 3, 2008

Special Inspector General for Iraq Reconstruction
SIGIR Report No.09-017, “Need to Enhance Oversight of Theater-Wide Internal Security
Services Contracts,” April 24, 2009




                                        24
Appendix C. Task Orders Reviewed
We reviewed six task orders awarded under MAC 1 for the Anti-Terrorism Force
Protection Ashore Program and its operational customer, Commander, Naval Installations
Command, which covers the design, procurement, integration, installation, sustainment,
training, and exercises of Anti-Terrorism Force Protection equipment at Navy shore
installations throughout the world. The overall MAC has a not-to-exceed ceiling of
$500 million.

                               Table C-1. MAC 1 Task Orders

                                                                   Task Order Amount
   IDIQ Contract            Task Order                             (base year plus option
      Number                 Number         Task Order Type                years)
N62473-07-D-4022                 5          Firm-Fixed-Price                  $ 17,939,556
N62473-07-D-4020                 8           Firm-Fixed-Price                   23,599,672
N62473-07-D-4020                 7           Firm-Fixed-Price                   16,168,618
N62473-07-D-4022                 6           Firm-Fixed-Price                    3,190,344
N62473-07-D-4022                 9           Firm-Fixed-Price                    4,735,808
N62473-07-D-4022                13           Firm-Fixed-Price                    1,253,326
Total                                                                         $ 66,887,324
Note: Amounts are rounded

We reviewed eight task orders awarded under MAC 2 for projects involving ocean cable
systems, ocean work systems, waterfront facilities, hyperbaric facilities, offshore
structures, moorings, and ocean construction equipment performed in environments
ranging from arctic to tropic and at all water depths. The overall MAC has a
not-to-exceed ceiling of $250 million.

                               Table C-2. MAC 2 Task Orders

                                                                    Task Order Amount
  IDIQ Contract             Task Order                              (base year plus option
     Number                  Number          Task Order Type                years)
N62583-09-D-0064                25           Cost-Plus-Fixed-Fee              $ 2,736,938
N62583-09-D-0065                6            Cost-Plus-Fixed-Fee                 1,785,300
N62583-09-D-0067                8            Cost-Plus-Fixed-Fee                 2,172,684
N62583-09-D-0068                3            Cost-Plus-Fixed-Fee                 1,110,289
N62583-09-D-0064               31            Cost-Plus-Fixed-Fee                   825,213
N62583-09-D-0064               34            Cost-Plus-Fixed-Fee                 2,109,105
N62583-08-D-0067                9            Cost Plus-Fixed Fee                 1,740,111
N62583-09-D-0067               10            Cost-Plus-Fixed-Fee                 6,631,767
Total                                                                         $ 19,111,407
Note: Amounts are rounded




                                           25
Appendix C. Task Orders Reviewed (cont’d)
We reviewed four task orders awarded under MAC 3 for logistical support, installation,
inspection, repair and maintenance, field supervision and operation of waterfront barriers,
associated moorings, waterfront security systems, and marine facilities throughout the
world. The overall MAC has a not-to-exceed ceiling of $80 million.

                               Table C-3. MAC 3 Task Orders

                                                                        Task Order Amount
  IDIQ Contract             Task Order                                  (base year plus option
     Number                  Number           Task Order Type                   years)
N62583-10-D-0344                 2             Firm-Fixed-Price                  $ 3,235,972
N62583-10-D-0341                6                Cost-Plus-Fixed-Fee                  6,000,741
N62583-10-D-0343                9                Cost-Plus-Fixed-Fee                  2,500,457
N62583-10-D-0344                4                Firm-Fixed-Price                     2,441,751
Total                                                                            $ 14,178,921
Note: Amounts are rounded

We reviewed two task orders awarded under MAC 4 for technical and professional
services in support of NFELC through the completion of project based work. The types
of government assets and equipment supported under this MAC include support vehicles,
construction equipment, generators, compressors, watercraft, physical security and
surveillance, and other commercial type support equipment and systems. The overall
MAC has a not-to-exceed ceiling of $30 million.

                               Table C-4. MAC 4 Task Orders

                                                                        Task Order Amount
  IDIQ Contract             Task Order                                  (base year plus option
     Number                  Number           Task Order Type                   years)
N62583-09-D-0061                14            Time-and-Materials                  $    206,177
N62583-09-D-0062               32             Time-and-Materials                       857,043
Total                                                                             $ 1,063,220
Note: Amounts are rounded




                                            26
Appendix D. Competition and Price
Reasonableness Issues
                                                          Is Competition                          Is Support for Price
   Contract/Task Order                                                     Is Support for Price
                                                          for Task Order                           Reasonableness on
   Number/Task Order              Contract Action                           Reasonableness on
                                                              Awards                                  Modifications
      Modification                  Description                             1-bids Adequate?
                                                            Adequate?                                  Adequate?
MAC 1 – Antiterrorism Force Protection Equipment Installation and Maintenance


                                Installing vehicle and
N62473-07-D-4022-0005                                          Yes                N/A                    N/A
                                   pedestrian gates


    Modification 2             Change of requirements          N/A                N/A                    N/A


N62473-07-D-4020-0008           Sustainment of RDCs            Yes                 No                    N/A



                                Sustainment of Entry
N62473-07-D-4020-0007                                            No                No                    N/A
                                Control Point systems

                                Procure, receive, and
                                 install equipment;
N62473-07-D-4022-0006           perform sustainment            Yes                N/A                    N/A
                                services on installed
                                     equipment
    Modification 4                Add requirements             N/A                N/A                    N/A


                                Sustainment services
N62473-07-D-4022-0009                                          Yes                N/A                    N/A
                                for the Navy ELMR



                                Design, procure, and
N62473-07-D-4022-0013                                          Yes                N/A                    N/A
                               install automated gates

MAC 2 - Ocean facilities engineering support services

N62583-09-D-0064-0025
                                Phase III of the XSDS          Yes                 No                    N/A


    Modification 4                 Additional work             N/A                N/A                     No

                               Disassembly, removal,
N62583-09-D-0065-0006
                               and salvage of offshore         Yes                 No                    N/A
                                  Beaufort Towers


N62583-09-D-0067-0008          Ocean facilities support
                                                               Yes                N/A                    N/A
                                services sensor repair


                                Installation of a CFLA
N62583-09-D-0068-0003
                                surveillance system on         Yes                 No                    N/A
                                 board USNS vessels

Acronyms used throughout Appendix D are defined on the final page of Appendix D



                                                            27
Appendix D. Competition and Price
Reasonableness Issues (cont’d)
                                                        Is Competition                          Is Support for Price
  Contract/Task Order                                                    Is Support for Price
                                                        for Task Order                           Reasonableness on
  Number/Task Order           Services Purchased                          Reasonableness on
                                                            Awards                                  Modifications
     Modification                                                         1-bids Adequate?
                                                          Adequate?                                  Adequate?

N62583-09-D-0064-0031        Procure initial sparing
                                                             Yes                N/A                    N/A
                             for three CLFA ships

                               Extend period of
   Modification 1                                            N/A                N/A                     No
                                performance

                                 Support for the
N62583-09-D-0064-0034                                        Yes                N/A                    N/A
                            installation of STAFAC


   Modification 1                 Revise PWS                 N/A                N/A                     No

   Modification 2                  Add scope                 N/A                N/A                     No

   Modification 3                 Revise PWS                 N/A                N/A                     No

                            To repair an underwater
N62583-09-D-0067-0009
                               electro-magnetic              Yes                N/A                    N/A
                             measurement facility

                               Extend period of
   Modification 2                                            N/A                N/A                     No
                                performance

N62583-09-D-0067-0010       Corrective repairs to the
                                                             Yes                N/A                    N/A
                                 AIMS Array

                               Extend period of
   Modification 1                                            N/A                N/A                     No
                                performance

   Modification 2                 Added costs                N/A                N/A                     No

MAC 3 – Barrier, Mooring, and Marine Facility Support Services


N62583-10-D-0344-0002        Water barrier upgrade           Yes                N/A                    N/A



                              Waterfront security
N62583-10-D-0341-0006        systems refurbishment           Yes                N/A                    N/A
                                  and upgrade

   Modification 2               Additional work              N/A                N/A                     No

Acronyms used throughout Appendix D are defined on the final page of Appendix D




                                                          28
Appendix D. Competition and Price
Reasonableness Issues (cont’d)
                                                       Is Competition                          Is Support for Price
  Contract/Task Order                                                   Is Support for Price
                                                       for Task Order                           Reasonableness on
  Number/Task Order           Services Purchased                         Reasonableness on
                                                           Awards                                  Modifications
     Modification                                                        1-bids Adequate?
                                                         Adequate?                                  Adequate?

                              Refurbishment and
N62583-10-D-0343-0009                                       Yes                N/A                    N/A
                               upgrade of PSB



                                 Fabrication and
N62583-10-D-0344-0004                                       Yes                N/A                    N/A
                              installation of a PSB


MAC 4 – Integrated Logistics Support


                             Training of Caterpillar
N62583-09-D0061-0014                                        No                  No                    N/A
                                   equipment



                              Integrated Logistics
N62583-09-D0062-0032                                        Yes                N/A                    N/A
                               Overhaul support


AIMS               Assessment and Identification of Mine Susceptibility
CLFA               Compact Low Frequency Active
ELMR               Enterprise Land Mobile Radio
N/A                Not Applicable
PSB                Port Security Barrier
RDC                Regional Dispatch Center
STAFAC             South Tongue of the Ocean Acoustic Facility
USNS               United States Naval Ship
XSDS               Expeditionary Swimmer Defense System




                                                         29
Department of the Navy Comments




                Click to add JPEG file




                                  30
Click to add JPEG file




                 31
Click to add JPEG file




                 32
Click to add JPEG file




                 33
Click to add JPEG file




                 34
Click to add JPEG file




                 35
